FEDERAL PUBLIC DEFENDER
WESTERN DISTRICT OF OKLAHOMA
SUSAN M. OTTO
FEDERAL PUBLIC DEFENDER
Death Penalty Federal
Habeas Corpus Division:
Reply To: X
215 Dean A. McGee
Suite 707 Old Post Office Building
Oklahoma City, Oklahoma 73102
(405) 609-5975
Fax: (405) 609-5976

Main Office:
Reply To:
215 Dean A. McGee
Suite 109 Old Post Office Building
Oklahoma City, Oklahoma 73102
(405) 609-5930
Fax: (405) 609-5932

Federal Transfer Center
Parole Revocation Docket:
Reply To:
215 Dean A. McGee
Suite 109 Old Post Office Building
Oklahoma City, Oklahoma 73120
(405) 680-4047
Fax: (405) 680-4082

March 18, 2020
Mr. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Tommy Sharp, Petitioner v. Roderick Smith, Respondent, Case No. 19-1106 (capital case)

Dear Mr. Harris:
Pursuant to Rules 30.4 and 15.3 of the Rules of the Supreme Court, undersigned counsel for
Respondent, Emma V. Rolls, hereby requests an extension of time of forty-five (45) days in which
to respond to the Petition for Writ of Certiorari filed in the above-captioned case.
The Petitioner’s petition was filed March 2, 2020, and docketed March 9, 2020. The
Respondent’s Brief in Opposition is currently due April 9, 2020. Counsel for Respondent
respectfully requests a 45-day extension, which would render the brief due Monday, May 25, 2020.
The extension is justified for the following reasons.
Respondent’s counsel of record is the supervisor of the Capital Habeas Unit of the Federal
Public Defender for the Western District of Oklahoma, which entrails numerous administrative and
supervisory functions, including an increased workload litigating a challenge to the newly released
lethal injection protocol for Oklahoma capital inmates. Ms. Rolls is also co-counsel on a certiorari
petition currently due May 25, 2020, in Harmon v. Sharp, Supreme Court Case No. 19A1011.
Further, Ms. Rolls is the lead attorney in Tommy Sharp, Petitioner v. Jimmy Harris, Respondent,
Supreme Court Case No.19-1105, wherein the Brief in Opposition is due the same date on which
the Brief in Opposition is currently due in this case. The Petition for Writ of Certiorari was filed
over 20 days before its due date in Harris. Thank you for your consideration.
Sincerely,
s/ Emma V. Rolls
Emma V. Rolls
Assistant Federal Public Defender
Western District of Oklahoma

